No. 19-1257, 19-1258
MARK BRNOVICH, IN HIS OFFICIAL CAPACITY AS
ARIZONA ATTORNEY GENERAL, ET AL.,
Petitioners,

v.
DEMOCRATIC NATIONAL COMMITTEE, ET AL.,
Respondents.
ARIZONA REPUBLICAN PARTY, ET AL.,
Petitioners,
v.
DEMOCRATIC NATIONAL COMMITTEE, ET AL.,
Respondents.

AFFIDAVIT
On this 7th day of December, 2020, I, Anthony G. Lantagne, hereby certify
that this BRIEF OF AMICUS CURIAE THE REPUBLICAN GOVERNORS
PUBLIC POLICY COMMITTEE IN SUPPORT OF PETITIONERS was sent this
same day via Federal Express Overnight Delivery to the Supreme Court of the
United States. I further certify that I have served this same date the required
copies via USPS First Class Mail and email to the counsel of record listed below:
Marc Erik Elias
Perkins Coie, LLP
700 Thirteenth Street N.W.
Suite 800
Washington, DC 20005-3960
(202) 434-1609
MElias@perkinscoie.com
Michael A. Carvin
Jones Day
51 Louisiana Ave., N.W.
Washington, DC 20001
(202) 879-7643
macarvin@jonesday .com
Joseph A. Kanefield
Chief Deputy and Chief of Staff
Office of the Arizona Attorney General
2005 N. Central Ave.
Phoenix, AZ 85004
(602) 542-5025
J oe.Kanefield@azag.gov

Jessica Ring Amunson
Jenner & Block LLP
1099 New York Avenue NW
Suite 900
Washington, DC 20001
(202) 639-6023
JAmunson~enner .com
I declare under penalty of perjury that the foregoing is true and correct.
Executed on this 7th day of December, 2020.

COMMONWEALTH OF VIRGINIA
CITY OF RICHMOND

)
)

to-wit:

Anthony G. Lantagne appeared before me this 7th day of December, 2020, and
attested that the foregoing affidavit is true d exae
the st ofhis knowledge
and belief.

